Audit Report

Community Mapping, Planning and Analysis for Safety Strategies Grant Administered by the City of Milwaukee, Wisconsin

Report No. GR-50-04-008


July 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Community Mapping, Planning and Analysis for Safety Strategies (COMPASS) grant awarded by the U.S. Department of Justice, Office of Justice Programs, National Institute of Justice to the city of Milwaukee, Wisconsin (the City).  The established mission of the Milwaukee COMPASS program is to support and enhance decision-making in public safety and other areas of public policy that is strategic, collaborative, and data-driven.  

On May 21, 2001, the City was awarded a total of $625,000 to conduct community mapping and provide information to various institutions and community groups to combat crime and improve the community's well being.  The project's final cost was $624,188.  We tested the City's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the award.  Of the $624,188 expended as of December 31, 2003, we tested transactions totaling $140,796 and found that the grantee was generally in compliance with the grant conditions tested.  However, we found that the City:

did not record two grant-funded property items on its property records, and

	did not file progress reports on grant activity. 

In addition, grant officials said they did not receive full cooperation from the Milwaukee Police Department for crime analysis information to support the COMPASS mapping project.  We were told that the Chief of Police was concerned that if they released this information it could be detrimental and hinder the public safety efforts of the Milwaukee Police Department.  The police department recently appointed a new Chief of Police, and according to a police official, the new chief has indicated she will cooperate more fully with this program in the future. 

Our results are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.